<html>
<title> - MAINTAINING U.S. INFLUENCE IN SOUTH ASIA: THE FY 2018 BUDGET</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





      MAINTAINING U.S. INFLUENCE IN SOUTH ASIA: THE FY 2018 BUDGET

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 7, 2017

                               __________

                           Serial No. 115-76

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-758 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


























                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     TED S. YOHO, Florida, Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             DINA TITUS, Nevada
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            THEODORE E. DEUTCH, Florida
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
ANN WAGNER, Missouri























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Alice G. Wells, Acting Assistant Secretary, Bureau 
  of South and Central Asian Affairs, U.S. Department of State...     6
Ms. Gloria Steele, Acting Assistant Administrator, Bureau for 
  Asia, U.S. Agency for International Development................    22

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted S. Yoho, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on Asia and the 
  Pacific: Prepared statement....................................     3
The Honorable Alice G. Wells: Prepared statement.................     9
Ms. Gloria Steele: Prepared statement............................    24

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    48
Written responses from the Honorable Alice G. Wells to questions 
  submitted for the record by:
  The Honorable Ted S. Yoho......................................    50
  The Honorable Dina Titus, a Representative in Congress from the 
    State of Nevada..............................................    55
  The Honorable Brad Sherman, a Representative in Congress from 
    the State of California......................................    56

 
      MAINTAINING U.S. INFLUENCE IN SOUTH ASIA: THE FY 2018 BUDGET

                              ----------                              


                      THURSDAY, SEPTEMBER 7, 2017

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:00 a.m., in 
room 2172 Rayburn House Office Building, Hon. Ted Yoho 
(chairman of the subcommittee) presiding.
    Mr. Yoho. The subcommittee will come to order. Members 
present will be permitted to submit written statements to 
include in the official hearing record. Without objection, the 
hearing record will remain open for 5 calendar days to allow 
statements, questions, and extraneous material for the record, 
subject to length limitation in the rules.
    Well, good morning. The subcommittee assembles today to 
discharge our responsibility to conduct oversight of the 
administration's fiscal year 2018 budget request for South 
Asia. Today, we will discuss requests for Bangladesh, India, 
the Maldives, Nepal, and Sri Lanka, reserving Afghanistan and 
Pakistan until next week when we will convene jointly with the 
Subcommittee on the Middle East and North Africa.
    It goes without saying that South Asia is an increasingly 
consequential part of the globe. For a long time, the world's 
center of gravity has been shifting to the East, and the Indian 
Ocean region is a major part of this trend. The five nations we 
will discuss today--Bangladesh, India, the Maldives, Nepal, and 
Sri Lanka--have about 1.5 billion residents combined, 
comprising nearly 20 percent of the world's population.
    These nations are located along, or on top of, vital global 
sea lanes through the Indian Ocean which grows more 
strategically important by the day. Connecting vital straits 
and rising Asian economies in the East with the rest of the 
world and its energy to the West, the Indian Ocean has 
significant implications for security and trade across the 
globe.
    Despite the immense strategic economic importance of these 
nations, this year's State and Foreign Operations Congressional 
Budget Justification shows the administration tends to slash 
our commitments to them by 48 percent. Under the 
administration's request, this region is the hardest hit by 
cuts after Europe and Eurasia.
    As I stated during the subcommittee's last budgetary 
oversight hearing, I commend the administration's efforts to 
increase fiscal responsibility, but I am concerned that cutting 
the budget to an arbitrary dollar amount has been prioritized 
over the actual value of the individual programs. It is worth 
reiterating that even before this year's foreign operations 
budget was slashed by 30 percent, it accounted for just 1 
percent of annual Federal outlays.
    Dramatic cuts to foreign aid are not the way to rein in our 
out-of-control government spending, especially if they 
undermine U.S. interests. Sound business logic dictates that we 
should continue projects that deliver a good return on 
investment, but this year's request seems to de-fund a number 
of initiatives that significantly benefit our national 
interest.
    In Sri Lanka, for example, U.S. foreign assistance will be 
cut by 92 percent, mostly from accounts that have supported 
programs to promote the rule of law, democratic reforms, post-
Civil War reconciliation, and related efforts. These programs 
are cost-effective ways to contribute to Sri Lanka's 
transformation while pursuing a partnership in strategically 
critical locations. Even at their height in 2016, U.S. 
assistance commitments to Sri Lanka were about 42.5 million, 
and that is a bit less than half the cost of a single F-35 
fighter jet. That seems like a reasonable investment to gain a 
friend in one of the world's most critical sea lanes.
    While we are forming a large Millennium Challenge 
Corporation compact with Sri Lanka, the MCC will focus on 
economic activities. I am concerned that by changing course so 
drastically we want to make sure that we are not throwing away 
the investments we have already made in Sri Lanka, leaving a 
gap in the democracy and governance programs Sri Lanka badly 
needs and potentially forcing the closure of our USAID mission.
    Requests for other nations in this region raise similar 
questions. Assistance of the Maldives which faces seriously 
security risks will be cut by 87 percent. Assistance to India 
and Nepal will each be cut by about 60 percent. Amid the rising 
strategic and economic importance of the Indian Ocean region, 
these numbers raise a serious risk of sending the wrong message 
about our understanding of the region and our commitment to 
stay engaged.
    As in any business, it is important to look at what 
investments are competitors are making. As we reduce our 
commitments in South Asia, China is expanding there like never 
before leveraging huge infrastructure projects to rapidly 
become the preferred partner in locations across the Indian 
Ocean. We have all heard the cliche that nature abhors a 
vacuum.
    This morning as we discuss the fiscal year 2018 budget 
requests for these five nations, I am interested in hearing 
from the witnesses how the reductions of our commitments will 
affect U.S. security and economic interests in the Indian Ocean 
and how our partnerships will fare. I also hope our 
conversation will answer a comparatively simpler question: Does 
this budget represent a step forward in our partnership in 
South Asia?
    Without objections, the witnesses' written statements will 
be entered into the hearing, and I now turn to the ranking 
member for any remarks he may have.
    [The opening statement of Mr. Yoho follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
                              ----------                              

    Mr. Sherman. Thank you, Mr. Chairman. I had this brilliant 
opening statement to talk about the budget cuts. You, 
unfortunately, already laid it out in a level of eloquence that 
I would not try to match.
    Mr. Yoho. I read your notes before you got here.
    Mr. Sherman. I want to associate myself with your comments 
that this is not the time to be cutting our foreign operations, 
particularly in the South Asia area.
    My district includes most of the studios. I love actors. We 
have before us an acting assistant secretary and an acting 
assistant administrator, but on this one occasion I would 
prefer not to be talking to actors. The idea that is this the 
fault of the Senate and the confirmation process, I am always 
in favor of blaming the United States Senate. I have done it in 
this room many times. But the folks have not been nominated 
yet.
    The Senate is controlled by Republicans and they have 
changed their rules so it takes only 50 votes, only Republican 
votes, to confirm. This is not a confirmation problem, this is 
an appointment problem. The Secretary of State and I have 
talked about this. He says, but the acting people are doing 
well, doing spectacularly well, to which my response has been 
fine, Ambassador Wells should be given the job permanently.
    And I don't have a response. I didn't single you out, 
actually. But in general, the people he praises ought to be 
given the job on a permanent basis. The idea that we go from 
Obama appointees to acting and then to other appointees, 
perhaps all in 1 year, puts our foreign policy in disarray.
    With regard to reaching out to the people of South Asia, I 
think it is critically important that we look at broadcasting. 
I will be asking just how involved you are, Ambassador Wells, 
in talking to the folks that control our international 
broadcasting. I think they try to match our foreign policy 
objectives in selecting which countries to broadcast to and in 
which languages, but I think they often don't get much guidance 
from the State Department.
    But what is worse is this committee has urged them to start 
broadcasting in the Sindhi language and other languages of 
Pakistan, starting with Sindhi, and they have always found a 
reason not to do so even though the cost would be, I think, 
less than it costs to operate an aircraft carrier for 1\1/2\ 
minutes.
    So I think we will learn from your testimony just how 
problematic the situation in Pakistan is. You are dealing with 
a nuclear state that is not always consistently friendly with 
the United States and apparently, even in its military city of 
Abbottabad, can't find a compound inhabited by Osama bin Laden. 
And yet we are only reaching out in Urdu, the language the 
government might prefer us to broadcast in, but not the 
language used by thousands and thousands of businesses who try 
to reach out to consumers. They know what they are doing when 
they try to sell soap; we should be in the same language.
    India, Afghanistan--the President and I know from other 
sources, has doubled down on this idea of encouraging India to 
be involved with Afghanistan. India, it is a poor country, but 
one question is whether it should have a foreign aid program at 
all. If it doesn't have a foreign aid program it has immediate 
neighbors like Nepal and Bangladesh whose needs far exceed 
India's capacity to provide, and yet India is spending foreign 
aid money in Afghanistan. It is a geopolitical effort to deal 
with Pakistan, and one that we should not encourage.
    The Durand Line, between the border between Afghanistan and 
Pakistan, has not been recognized by the Afghan Government and 
we ought to condition our aid to Afghanistan on the recognition 
of that line. I realize that is tough, they will say oh, don't. 
But the fact is, as long as Afghanistan leaves open the idea 
that they are claiming Pakistani territory, it is going to be 
very hard to get the Pakistanis involved as we need them 
involved in controlling the Afghan Taliban.
    Certainly Pakistan sees its enemy as India, and the idea 
that India would have a close relationship with an Afghanistan 
that hasn't recognized the border and with whom they share the 
Pashtun ethnic group, shows that this particular foreign aid 
program of India should not be on the top of our list when we 
talk to the Indians about how they can use their scarce 
resources to help the most desperately poor people in the 
world.
    So I look forward to talking about these issues, and trade, 
as the questioning begins.
    Mr. Yoho. I thank the ranking member. And I know you will 
be excited that next week we will have the hearing on 
Afghanistan and Pakistan with the full committee and so we will 
fulfill that.
    We are thankful to be joined today by the Honorable Alice 
G. Wells, Acting Assistant Secretary for the Bureau of South 
and Central Asian Affairs at the U.S. Department of State, and 
I appreciate your time yesterday with the briefing; and Ms. 
Gloria Steele, again back talking to Us, Acting Assistant 
Administrator for the Bureau for Asia in the U.S. Agency for 
International Development.
    And with that we are going to let you go ahead and give 
your statement. Your statement, you will have 5 minutes, red 
light, you know, turn your red light on so that the microphone 
is on. You will have your timer there. And Ambassador Wells, if 
you would, your opening statement. Thank you.

  STATEMENT OF THE HONORABLE ALICE G. WELLS, ACTING ASSISTANT 
  SECRETARY, BUREAU OF SOUTH AND CENTRAL ASIAN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ambassador Wells. Thank you Chairman Yoho, Ranking Member 
Sherman, and Representative Brooks. Thank you for inviting me 
to testify on the fiscal year 2018 foreign assistance 
priorities for South Asia, and in my oral remarks today I will 
briefly summarize my written statement which has been submitted 
for the record.
    It is an honor to appear before the subcommittee as both, 
Acting Assistant Secretary for South and Central Asia and as 
Acting Special Representative for Afghanistan and Pakistan. The 
reintegration of the State Department's policy offices for 
Afghanistan, Pakistan, and South Asia is improving coordination 
and will enable us to more effectively advance U.S. national 
security interests across the region.
    Today, a quarter of the world's population, 1.7 billion 
people, live in South Asia. It is the fastest growing region in 
the world with almost half the population under the age of 17. 
This drives economic growth, expected to be above 7 percent 
from 2018 onwards, along with unprecedented opportunities for 
trade. Nowhere are these opportunities greater than in the 
growing road, air, and sea links between India, Bangladesh, 
Burma, Nepal, and Sri Lanka and the rapidly expanding ASEAN 
economies.
    Seventy percent of the infrastructure required to sustain 
and support the India of 2030 has yet to be built. This will be 
an enormous opportunity for U.S. companies that have the 
technology and expertise. For example, Boeing alone foresees a 
market for 2,000 commercial aircraft in South Asia over 20 
years. The region's growth has the potential to create \1/2\ 
billion new customers for U.S. businesses in consumer goods, 
financial services, technology, infrastructure, the health 
sector, energy, education, tourism, and more.
    In 2014, the United States exported more than $22 billion 
worth of goods to Southeast Asia, making us the region's number 
one trading partner. These exports support thousands of jobs 
and as the region rises thousands more are likely to be created 
as a result.
    India is one of our most important strategic partners and a 
country of growing political and economic importance globally 
with which our values and national interests increasingly 
align. U.S. assistance to the Indian Government contributes to 
meeting the basic needs of the Indian people, helping India to 
devote more attention to the regional and global leadership 
roles to which it aspires and which the United States supports.
    Bangladesh is a key partner for the United States. Despite 
its development and security challenges, Bangladesh sustains 
global peace with over 7,000 police and armed forces deployed 
to ten U.N. peacekeeping operations. It contributes to global 
food security and can provide a moderate alternative voice to 
countering violent extremism. In recent weeks, Bangladesh has 
also demonstrated its continuing commitment to host large 
numbers of Rohingya refugees.
    U.S. assistance will continue to strengthen Bangladesh 
against the threats of radicalization, support Bangladesh as a 
global model and humanitarian in development and poverty 
reduction, and promote a trade and investment environment 
conducive to U.S. companies. And in one of the poorest 
countries of the world, our assistance to Nepal helps 
strengthen democracy and improve transparency and 
accountability. With an MCC compact expected to be signed 
shortly, we will assist the Nepali Government in transforming 
its energy and transportation sectors.
    Since Sri Lanka's historic January 2015 elections, the 
United States has been partnering to make its workers more 
skilled, citizens more empowered, while ensuring that the 
government continues its ambitious reform agenda. As Sri Lanka 
implements its reform objectives and in accordance with limits 
set by Congress, our modest military-to-military engagement has 
expanded slowly and incrementally. Our 2018 requests support 
security and maritime cooperation and enhance strategic trade 
controls.
    In the Maldives we have real concerns about the status of 
rule of law and democracy. Maritime security is also a great 
concern due to threats posed by narcotics trafficking, piracy 
in the Indian Ocean, and seaborne trade in illicit materials of 
potential use for terrorist activity. Our foreign assistance 
request continues targeted support for maritime security 
cooperation.
    South Asia remains among the least economically integrated 
regions in the world and non-tariff barriers are a major cause. 
Their regional programs will target the elimination of non-
tariff barriers and the facilitation of regional trade and 
investment.
    In conclusion, South Asia is at the crossroads of the Indo-
Pacific region whose sea lanes are critical to the security and 
prosperity of the United States. By promoting a common vision 
of economic growth, transparent development, accountability, 
and regional integration, the policies and programs supported 
by our fiscal year 2018 request will ensure that the United 
States continues to be a leader in advancing regional unity and 
stability.
    Thank you for the opportunity to testify, and I look 
forward to working with you and your staff.
    [The prepared statement of Ambassador Wells follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Yoho. Thank you for your opening statement, Ambassador 
Wells.
    Ms. Steele?

STATEMENT OF MS. GLORIA STEELE, ACTING ASSISTANT ADMINISTRATOR, 
   BUREAU FOR ASIA, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Steele. Chairman Yoho, Ranking Member Sherman, 
Representative Brooks, Representative Connolly, thank you for 
inviting me to testify on the President's budget request for 
development assistance in South Asia. The President's budget 
request for USAID in the South Asia region is approximately 
$190 million. This request supports activities in Bangladesh, 
Nepal, and India--three countries in vastly different stages of 
development.
    In Bangladesh, the country finds itself at an important 
crossroads in its democratic evolution and economic growth. 
USAID has a diverse program helping to address the underlying 
factors that impede the country's progress and stability. Much 
hinges on the success of Bangladesh's secular democracy in 
preventing violent extremist attacks. The budget request 
supports USAID's program to strengthen citizen participation 
and government accountability. We are intensifying efforts to 
address the threat of violent extremism and recently awarded a 
new flagship project that will work to prevent recruitment of 
members of vulnerable groups by confronting key drivers.
    Advancements in agriculture have helped to drive poverty 
reduction and inclusive economic growth in Bangladesh over the 
past decade.
    But to continue this progress the country needs to shift to 
high-value agriculture. USAID is promoting crop 
diversification, market access, and modern farming practices to 
help farmers make this transition. We are also supporting 
improved disaster preparedness and natural resource management 
to sustain these gains amid frequent natural disasters and 
competition for scarce resources. On health, the budget request 
supports our continued efforts to improve maternal and child 
health, mitigate the spread of tuberculosis, and prevent 
chronic malnutrition and undernutrition.
    In Nepal, more than 10 years following the end of its civil 
war, the government is hampered by constant leadership changes 
and unresolved drivers of conflict. These include limited 
inclusion of traditionally marginalized populations and weak 
governance to meet public demand for quality services. The 2015 
earthquake was a significant setback for Nepal, pushing an 
additional 800,000 people into poverty.
    This budget request supports USAID's efforts to help 
fortify Nepal's fragile democracy, shore up its economic 
growth, and address persistent challenges in education, 
maternal and child health, and nutrition. So far this year, our 
support for the Government of Nepal has been critical in 
holding two phases of credible, broadly participatory local 
elections, the first in 20 years.
    USAID assisted with nine election-related bills as well as 
voter education initiatives and political party candidate 
training for women and members of other traditionally 
marginalized groups. The elections mark a historic devolution 
of power and resources to the local level, giving the people a 
stronger voice. As we support Nepal's transition to a 
democratic state with functioning local governance, we continue 
to support the combined national and provincial assembly 
elections scheduled for November 26th and December 7th.
    With 80 percent of Nepalis engaged in subsistence 
agriculture, USAID is working to modernize farming methods in 
order to improve productivity and increase incomes. At the same 
time, we are working to catalyze economic growth through 
agricultural commercialization and increased agribusiness 
competitiveness. Our agricultural programs contributed to a 36 
percent decrease in poverty in the targeted areas where we 
worked in the past 3 years.
    In India, although significant development gains have been 
made the country is still home to one-fourth of the world's 
extremely poor. Inequities abound particularly in health. More 
than 40 million Indians, a population equal to that of 
California, are pushed into poverty each year because of health 
care costs and illness-induced low productivity. Moreover, 
India accounts for roughly one-fifth of global maternal and 
child deaths and one-fourth of the world's new TB cases.
    Given its population of 1.3 billion, India's capacity to 
effectively respond to its pressing health challenges has 
proved understandably challenging. With a focus on improving 
maternal and child health and preventing the spread of TB, the 
budget request enables us to demonstrate high-impact models and 
approaches that more efficiently and effectively direct India's 
own resources to save lives. For example, India now uses a 
cloud-based patient feedback system that USAID helped them to 
develop in order to ensure better accountability and governance 
of services in hospitals.
    Mr. Chairman, Ranking Member Sherman, committee members, 
thank you for your support. Investing in global development 
progress remains in our national interest. In supporting the 
world's most vulnerable populations and in helping to build 
more stable, open, and prosperous societies, we strengthen our 
own security and help to generate new economic partners. Our 
efforts are both from and for the American people and reflect 
core American values of freedom, democracy, and stability. 
Thank you, and I look forward to your counsel and questions.
    [The prepared statement of Ms. Steele follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        
                              ----------                              

    Mr. Yoho. I have to commend both of you. You were right on 
time, under the marker. That is good.
    I find this so important that we are talking about this 
today. Outside of India which is the largest democracy, and us 
being the oldest democracy, I see the South Asia region being a 
fledgling democracy area. When I look at Sri Lanka going 
through the civil war that they did, they had for 30-some 
years, now that we have a democracy in place, a fledgling one 
since what, 2015. The insight that we have coming from the 
business world is not to put good money after bad.
    We wanted to make sure that the investment we made stays, 
and the long-term benefit of that is there in the long term so 
that we can make sure there is rule of law and democracies that 
continue to foster those relationships in trade, economics, 
security, and cultural exchanges. It is so important that we do 
that.
    I know we are going through some fiscal challenges in our 
country, there will be austerity measures as we have seen, but 
that doesn't mean you move away from the investments we have 
already made. We want to make those stronger. And so as we move 
from some of the maybe cuts from 96 percent, but we see MCC 
coming in there and investing what is it, $500 million, 
roughly, in Sri Lanka, that we invest in the roads and the 
infrastructure and we build an economic base for those 
countries to build upon and it is so important that economic 
connectivity gets built upon.
    And for Ambassador Wells, it is unclear that in the fiscal 
year 2018 budget the amount of funds that are requested to 
further the Indo-Pacific Economic Corridor initiative, could 
you give us a breakdown of the amount of funds that you think 
are necessary for this initiative to be successful?
    Ambassador Wells. Thank you. I just returned from Sri Lanka 
where I had an opportunity to meet with the President, Prime 
Minister, Foreign Minister, and leadership, and we had a very 
good conversations on Sri Lanka's need to continue along the 
road of reconciliation, what is a fragile post-conflict 
society, the important commitments that the government made 
with our assistance to the United Nations and our determination 
to help Sri Lanka meet those commitments.
    I heard firsthand from the Sri Lankan leadership that they 
understood that they needed to intensify, that they are now 
starting to operationalize mechanisms like the Office of 
Missing Persons. They undertook the constitutional reform was 
going to continue and move forward. I think our role, our 
diplomatic role in ensuring that that reconciliation process 
continues is critical and we are deeply engaged with the Sri 
Lankan leadership in that conversation and have been since the 
dramatic formation of the national unity government.
    In terms of the reductions in assistance, I mean there has 
been again a rationalization of our assistance across the 
board. But what I would emphasize is that ironically in Sri 
Lanka we are the largest grant provider of assistance. China is 
providing non-concessional loans that promote unsustainable 
debt burdens which I think are increasingly now of concern to 
the Sri Lankan people and the government, but what we bring to 
our relationship are multiple tools.
    And so when I stand back and look at the totality of the 
relationship, how we have begun to engage incrementally on 
military-to-military engagement--we are going to have our first 
naval exercise in October--we have provided excess defense 
article equipment so that the Sri Lankans can perform more 
effectively as a maritime nation. We are starting an IMET 
program, moving from the enhanced IMET to a traditional 
professionalization courses IMET. Then you add to that our 
negotiation of a compact, we are actually close to, with 
congressional notification, a compact in Nepal.
    The Sri Lanka compact is in the process of being 
negotiated. We have allocated a little over $7 million this 
year to continue that process of defining what an MCC compact 
would look like and we would like to reach a compact by 2018. 
But that is, the kind of assistance that we bring is thought 
out, transparent, involves the public-private sector, has buy-
in for civil society. The kind of investment that we make in 
Sri Lanka, I think, is deeply valued by both the government and 
the people. When I met with civil society representatives, 
including the leader of the Tamil opposition, they very much 
want to see a U.S. role and welcome our commitment to expanding 
both the economic as well as the diplomatic portion of our 
relationship.
    So I recognize that there has been a significant percentage 
reduction in the ESF, but I think outside of ESF we are using 
our tools to reinforce a message of reform and to bring Sri 
Lanka into a space where they too will institutionalize the 
principles of the Indo-Pacific. Freedom of navigation, 
transparency, non-militarization, humanitarian assistance and 
disaster relief at its core, and I think we are making good 
progress there.
    Mr. Yoho. I appreciate you bringing that up because it is 
so important, because we see how China has invested and it is 
loans, and they get them to where they are unsustainable and 
then they get into a situation where we saw the 99-year lease 
in Sri Lanka. And the investment that we want to do, we want 
them long term and it is to grow their economy, their economic 
base, the jobs for their youth. You said half the population in 
South Asia is under the age of 17.
    I found it astounding that you said 70 percent of the 
infrastructure needed by 2013 is yet to be built. I think with 
our business model, our relationships in investing in their 
country for their economic development is the way to go versus 
funding or loans as China does, and we see that all over the 
world. And it is important the jobs that both of you do, all of 
our diplomatic core as they represent the United States of 
America to concentrate on that economic development, because if 
it is the economic development they have they are going to 
guard it, they are going to protect it, and it is going to make 
our alliance stronger. So I commend you.
    I am out of time, and I know, Ms. Steele, you had something 
to say, but hopefully we can come back to you. I am going to 
turn to the ranking member. Thank you.
    Mr. Sherman. Thank you, Mr. Chairman. Once again you have 
shown brilliance by starting your questioning regarding Sri 
Lanka. I will imitate that brilliance.
    As I understand it Ambassador Wells, we are talking about a 
92 percent decline in our aid to Sri Lanka. Does this request 
include any support for reconciliation and reform efforts in 
Sri Lanka, and what signal are we sending with a 92 percent 
reduction? Ambassador?
    Ambassador Wells. I turn to my colleague to discuss the 
specific USAID programs, but again I recognize the severity of 
the percentage decline in the ESF but I would point to the 
totality of our programs. On the reconciliation side, 
diplomatically, we have always been the leading partner in 
driving the original agreement with Geneva which produced the 
government's historic----
    Mr. Sherman. So we do a great job of talking, which is what 
diplomats and congressmen do, but in my world money talks and a 
92 percent decline in money cannot be covered up by eloquence 
or good offices or even the art of the deal negotiations.
    Ms. Steele, we are talking about $3.3 million. That is 
basically--I hesitate to ask you about the aid for Sri Lanka 
because it has basically been zeroed out. I am sure Congress 
will not do that. But can you support reconciliation reform 
with $3.3 million?
    Ms. Steele. Mr. Sherman, we have invested $70 million since 
2015 and we worked in reconciliation, economic growth, and good 
governance. We have been using those resources which continue 
to be still available, some of them, to build their capacity to 
continue to be able to do what we started out to do.
    Mr. Yoho. Ms. Steele, thank you. I do want to go on to the 
next question.
    I am sure Ambassador Wells, you are well aware of the 
Rohingya. As additional background, America saved the people of 
Kosovo by bombing a Christian country. We saved the Muslims of 
Bosnia. So my question is twofold. First, are we going to 
cajole or pressure Aung San Suu Kyi and the Government of 
Burma, Myanmar, to start respecting these people's rights, to 
change their legal structure so that groups that have been 
there for 100 years and longer are given citizenship; and 
secondarily, what are we going to do so that Muslims around the 
world know that we saved the Muslims of Kosovo and Bosnia, and 
here we are playing in a major role or what I hope will be a 
major role, in saving those of Southwest Burma?
    Ambassador Wells. Thank you. When I was in Bangladesh it 
was at the onset of the refugee influx. At that time it was 
about 20,000. It is now over 160,000, I believe, and the human 
tragedy is compelling. What we have worked to do is both to 
assist Bangladesh in responding to the crisis we are waiting--
--
    Mr. Sherman. Ambassador, the easy thing is to just throw 
money at refugees in Bangladesh.
    Ambassador Wells. In addition----
    Mr. Sherman. How tough are we going to be on the Burmese 
Government?
    Ambassador Wells. In addition to the assistance we will 
provide to the--are providing and will continue to provide to 
the Bangladesh Government, the U.N. had a--Kofi Annan went out 
and did a report on the situation which produced several 
recommendations including recommendations like a joint 
commission on border management. We are working to see how we 
can have both countries sit down and implement some of those 
recommendations. But I agree with you that this is a crisis and 
there needs to be both a humanitarian and a political response 
to it.
    Mr. Sherman. But does Aung San Suu Kyi recognize her debt 
to those of us and millions and millions of Americans who 
worked for democracy in her country and are now watching the 
government over which she has significant influence carry out 
these atrocities?
    Ambassador Wells. I am afraid I am not able to speak for my 
colleague, Acting Assistant Secretary Susan Thornton, but 
from----
    Mr. Sherman. Okay. So your jurisdiction does not include--
--
    Ambassador Wells. It does not.
    Mr. Sherman. Okay. And if I can sneak in one more question, 
when a business asks for the help of the State Department and 
says it is important, do you look at how many jobs are involved 
in the project or could you end up working just as hard because 
a big business looking for a foreign supplier to be helped, 
looking to license IP, looking to do things that are very 
profitable for the company but involve very few jobs? Do you 
have a jobs analysis that guides you in determining how much 
effort to put into an economic request?
    Ambassador Wells. Our goal is always to support American 
business and analyses are done of the individual proposals and 
their effect on creation for U.S. jobs. Companies have to 
petition to the U.S. Department of Commerce in order to receive 
advocacies, specific advocacy for that company, in which case 
they have to be the only American company competing to have 
specific recognition.
    Mr. Sherman. But if you have two projects, one in one 
industry, one in another industry, they are the only American 
companies--one, they both will produce $100 million worth of 
profit for the companies, but one will produce a lot of jobs 
and one is just IP licensing, what mechanism do you have to 
prioritize the jobs profits over the licensing profits?
    Ambassador Wells. We will advocate for all U.S. companies 
under that circumstance.
    Mr. Sherman. Okay. I yield back.
    Mr. Yoho. Yeah, we will probably do three rounds. The 
wisdom of Congress is that we book all of our meetings at the 
same time and so people who are on the Judiciary--and you know 
how it goes. Anyways, let's move on.
    I would like to talk about the Maldives. Being an island 
nation of 393,000 people, roughly, it represents a growing 
terrorist threat. They are one of the largest sources of ISIS 
fighters per capita in the world operating abroad. Knowing 
that, what is the administration's reasoning for nearly 
eliminating the already modest U.S. assistance commitment to 
the Maldives? Ms. Steele?
    Ms. Steele. We recognize that violent extremism is a very 
important issue in the Maldives and we are in the process of 
putting together an assessment team to take a look at what we 
can do to help address the drivers of violent extremism in the 
Maldives at this time.
    Mr. Yoho. Okay. Ambassador Wells, do you have any comment 
on that?
    Ambassador Wells. We are also assessing how we can enhance 
our information sharing relationship with the Maldives in order 
to counter terrorism, counter violent extremism while at the 
same time recognizing that the government, the President, has 
consolidated control, has stripped the authority of many 
democratic institutions. There are complications and challenges 
in working with the Government of the Maldives.
    Mr. Yoho. Okay, let me ask you both because we hear about 
the cuts for Sri Lanka but we don't talk about the investment 
of MCC of $500 million, roughly. Are the other countries, are 
we at a point where MCC is going into Bangladesh, the Maldives, 
Nepal, have we looked at business models? Because the way we 
invest on those we hold the countries accountable with the 
metrics that are set up in those and it is more of an 
investment in the infrastructure and business.
    What are your thoughts on that, say, for the Maldives? Have 
we looked at that?
    Ambassador Wells. The MCC has very rigorous standards and 
criteria for countries to be eligible for compacts. Currently, 
within the South Asia region it is Nepal and Sri Lanka who are, 
Nepal is at the end stage of negotiating the compact and Sri 
Lanka is at the beginning. So the criteria will still need to 
be applied so there is no movement at this stage to consider a 
compact for the Maldives.
    Mr. Yoho. Okay. And in your experience in the countries 
that have used the MCC business model do you find that more 
effective than just foreign aid through USA--through some other 
form versus, you know, just giving money out and doling it out 
like we have done in the past in other countries?
    Ambassador Wells. I think they are very complementary and I 
will turn to Gloria. But my personal experience is that the MCC 
and its ability to do public-private partnerships, to tap in 
the government and the business community, and to implement 
gender-related components to it has been very useful in 
multiple compacts. But it doesn't substitute for all the other 
assistance work that we do. Gloria?
    Ms. Steele. Yes. When I was in the Philippines, I was 
Mission Director in the Philippines before coming here and we 
had an MCC compact there as well as a robust Partnership for 
Growth program run by USAID, and they are complementary. They 
don't actually--they don't substitute for one another. We work 
on very specific issues that are of the time important to them. 
We did an analysis with them to identify what areas they wanted 
to work with and they complement what MCC does.
    But MCC's analyses of the programs they do are put together 
5 years before because it is a 5-year compact and so we focus 
on the constraints they face at the time. They are 
complementary but they don't substitute for one another.
    Mr. Yoho. Okay, thank you. With President Trump's speech, I 
think it was a week or two ago where he was talking about our 
pivot with Afghanistan and Pakistan and India's more increasing 
role with Afghanistan and we saw India's willingness to stand 
up to China in the Northern Territory and then we saw the 
resolution of that peacefully. Thank God. Are there provisions 
in the proposed budget that could help deepen the U.S-India 
security partnership which could be beneficial in checking 
China's unwarranted territorial claims through the rest of 
Asia?
    Ambassador Wells, you brought up the mil-to-mil cooperation 
between the United States Navy with Sri Lanka. What are your 
thoughts on that dealing with India and how can we strengthen 
that relationship?
    Ambassador Wells. The United States supports peaceful and 
stable relations globally among all countries, including India 
and China, and our goal ultimately in the Indo-Pacific region 
is, you know, every nation should be able to work together to 
uphold international norms and to prosper. While we strongly 
support, we obviously strongly support a prosperous India that 
plays a leading global role, both China and India are leading 
powers but our relationship with India really stands on its 
own. It stands on its own because it is based on democratic 
values, on close political and economic ties.
    If you look at the military relationship between the United 
States and India, it is an extraordinary story over the last 10 
years where we went from zero in military sales to $15 billion. 
We are currently holding the largest military exercise with 
India and Japan, the Malabar exercise that brings together 
10,000 personnel and our largest carriers. We are with India as 
a major defense partner.
    We are able to now offer advanced technologies, and during 
the visit of Prime Minister Modi with President Trump in June 
we had the unprecedented offer of the nonlethal Sea Guardian 
UAV for maritime security. Now we want to build on that 
military partnership. India over the next 7 years is projected 
to spend $30 billion in military modernization. Our companies 
like Boeing and Lockheed with the F-18s and the F-16s are 
natural competitors and would deeply enhance our 
interoperability with India.
    But then how do we build that relationship further outward? 
So we are already working with Japan. There are opportunities 
to work with Australia. How do we as democratic nations that 
share values enshrine those values? And again freedom of 
navigation, demilitarization, you know, working together on 
disaster response, humanitarian assistance, setting a standard 
for the region.
    I think when I was at this conference in Colombo which 
brought the countries of the region, really, from the 
Seychelles to Singapore together I was impressed by the unity 
of purpose. People seek that. They want that. We have an 
opportunity to create this working relationship.
    Mr. Yoho. Thank you.
    Mr. Sherman, round two.
    Mr. Sherman. I want to pick up where I was on 
prioritization of two different companies that would like your 
assistance. You don't have unlimited resources, so one 
possibility is that advocacy for a U.S. company consists of 
just sending a letter or rubber-stamping a document in which 
case you do have unlimited resources. You could send out 1,000 
letters a year, but I would hope that you are doing more than 
that.
    If you have to prioritize between--I mean, do you have 
unlimited, I know you don't have unlimited resources. Are there 
significant resources being used to advocate for U.S. 
businesses? And given the fact that your resources are limited, 
how do you prioritize which companies to put a lot of effort 
behind?
    Ambassador Wells. I mean in countries where you have a 
vibrant trade relation and foreign direct investment 
relationship then yes, I mean the bigger deals where we are 
eligible and allowed under U.S. regulation to lobby 
specifically for a company those projects that deliver more 
jobs for Americans are going to occupy the attention.
    Mr. Sherman. How are you certain that your--because we 
talked privately in my office. I brought to your attention the 
fact that an ambassador was advocating for German-built cars, 
not in your region I might add. So how do you, do you get a 
report as to okay, I have limited resources. I could put a 
little more time in this project or that project, do you get 
any report as to how many U.S. jobs are involved?
    Ambassador Wells. When countries apply----
    Mr. Sherman. Or is it just the size of the deal? Because 
they both could be $100 million deals but one is $100 million 
of licensing as the one that is $100 million of product. So 
they both, if you just say how big is the deal they are the 
same size deal, but what do you do to prioritize jobs to know 
how many jobs are behind the project?
    Ambassador Wells. No, I am speaking now from my personal 
experience as a former Ambassador to Jordan. And there what you 
receive from the Commerce Department, and I would have to defer 
to my Commerce colleagues, you receive an analysis of what the 
deal is and an understanding of the----
    Mr. Sherman. I would urge you to insist for the Department 
of Commerce that jobs be the first line. Not how many profits, 
not how big is the deal, how many jobs.
    I want to go on to Sindh. We have seen disappearances, both 
of those who advocate for the Sindhi-speaking community and 
those who advocate for the Muhajirs. These two groups don't 
tend to get along but it seems like their political activists 
are disappearing. I look forward to working with you to make 
official inquiries of the Pakistani Government of political 
activists who have just disappeared including the brother of a 
friend of mine.
    I know that we have a Web site from the consulate in 
Karachi in the Sindhi language. We do some public diplomacy 
which means the State Department has determined that reaching 
out in the Sindhi language makes sense. Have you communicated 
that over to the broadcasting board of governors saying, hey, 
we are reaching out to people in the Sindhi language, you 
should too? Or more importantly, what do I do to get you to do 
that?
    Ambassador Wells. You have just inspired me to reach out. 
But I would note that in countries like Sri Lanka, for 
instance, our Embassy is doing programming in seven languages 
and its seven different markets. We are often confronted in 
places like Pakistan and India where there are multiple 
languages that have deep reach at the state level or even lower 
where there is a need to target information. So I absolutely 
take your point----
    Mr. Sherman. I ask questions about Sri Lanka. It is very 
important. Pakistan has an undisclosed number of nuclear 
weapons and three or four major languages and it is important 
that we reach out beyond just Urdu. The State Department has 
done that and my inspiring you will inspire the board of 
governors of the broadcasting operation to do the same.
    Let's see. Oh, you mentioned airplane exports to India 
either in our private conversations or here. That may be our 
biggest single export to India. We are in competition with 
Europe. They have an export finance authority. We have the EXIM 
Bank. Without the EXIM Bank we are at a distinct disadvantage 
in selling planes to India.
    Have you found the EXIM Bank to be helpful and do you think 
that we would have an even bigger trade deficit with India if 
we didn't have an EXIM Bank?
    Ambassador Wells. I can't comment on what motivates 
individual companies. I mean over the course of my career of 
course I have appreciated the work of EXIM in supporting U.S. 
exports and particularly in the aircraft sector, but I would 
note that in our trade relationship with India these exports 
are continuing regardless. During the Prime Minister's visit in 
June we had the announcement of a $23 billion plane sale and 
planes, commercial aircraft as well as military aircraft, are a 
key sector for exports in the future.
    Mr. Sherman. Well, I hope that the President will appoint 
people to the board of directors of EXIM Bank that will carry 
out its duties. Otherwise, you may be back here assuming that 
you--well, assuming that Rex Tillerson takes my advice and 
makes you the permanent assistant secretary.
    Do you have a plan to reach balanced trade with the major 
countries in our area? Because if I share one thing with the 
President it is a real focus on the trade deficit numbers 
because those numbers translate into real jobs, real lives, 
lives that can be ruined, lives that I have seen being ruined. 
We have this trade deficit. You are doing a few things about 
it. But do you have a goal? Do you have a strategy designed to 
achieve a particular goal and is a balanced trade relationship 
the goal?
    Ambassador Wells. It is a clear priority for the Trump 
administration, absolutely. During the visit of Prime Minister 
Modi with President Trump, this was discussed. And I think 
that----
    Mr. Sherman. Was it discussed in the nature not of, well, 
we would like to sell more to India; was it discussed in the 
idea we want to achieve balance in the trade? Because when I 
first got to Congress, an administration official said yes, if 
we could expand exports by $1 billion and expand imports by $2 
billion that would be great because we would have $3 billion 
more in trade. And so is the goal just, is there a strategic 
goal to reach balance with India and with Bangladesh?
    Ambassador Wells. The administration is doing an assessment 
of the top countries with trade deficits and the goal is to 
equalize and reduce those trade deficits. In the case of India 
there are obvious areas where we can work to improve IPR 
protection, to reduce non-tariff barriers. We have several 
high-level, serious dialogues through USTR and the Department 
of Commerce to tackle specific sectorial issues. We have used 
the WTO in the case of our chicken, our poultry and egg 
exports, where we expect India to implement the WTO ruling and 
this is a major part of our dialogue.
    Mr. Sherman. I have got to interrupt for one more question 
because I promised you I would ask this. Is India going to 
change its liability laws to put America nuclear plant builders 
on the same liability footing as those entities that have 
sovereign immunity such as those from China, France, and 
Russia?
    Ambassador Wells. India took three actions. They joined the 
convention on Supplementary Compensation for Nuclear Damage. It 
is a multilateral treaty.
    Mr. Sherman. Did they sign the additional protocol?
    Ambassador Wells. The additional protocol of the IAEA?
    Mr. Sherman. I think there is a particular--please 
continue.
    Ambassador Wells. So they joined this multilateral treaty 
that lays out a framework for liability and then they announced 
guidance that its nuclear law, domestic nuclear legislation, 
was in conformance with that law. Then the third thing they did 
was they set up a domestic insurance pool for operators and 
vendors for liability from nuclear accidents. Those three steps 
are designed to increase confidence in the domestic and foreign 
companies in the nuclear industry.
    Mr. Sherman. Are companies----
    Ambassador Wells. All I can say is that Westinghouse found 
them sufficient.
    Mr. Sherman. Westinghouse. Now if they could just move 
their jobs back to the United States I would be more happy with 
them. I yield back.
    Ambassador Wells. Can I respond to----
    Mr. Sherman. I didn't even mention global warming. We 
talked about the Maldives.
    Mr. Yoho. No.
    Mr. Sherman. I didn't mention the ex-Maldive island.
    Mr. Yoho. I said tax reform.
    Ambassador Wells. But the $10 billion in U.S. content, in 
export content in the nuclear deal, potential in the nuclear 
deal, we believe would generate 50,000 jobs.
    Mr. Yoho. 15,000?
    Ambassador Wells. Yeah.
    Mr. Yoho. No, I want to build on that. When we look at what 
China's done with the One Belt One Road, there is over $1 
trillion invested, roughly, that they have invested through 
loans from other countries and they have such a strong 
presence. Do you feel the business model that we are working 
with our foreign aid as small as it is, but more importantly 
with the relationships we are developing with like-minded 
democracies, is enough to offset that? And our mil-to-mil 
cooperation with India and with Sri Lanka, what are your 
thoughts on that? Is that enough to fend off the encroachment 
of China with their investments?
    Ambassador Wells. I mean our priority has been to increase 
interregional connectivity.
    Mr. Yoho. Right.
    Ambassador Wells. If you look at the region, their 
interregional trade comprises only 2 percent which is the 
lowest in the world. A lot of what we bring to the table is the 
soft assistance, helping with regulations and frameworks and 
how do you do customs and how do you streamline procedures. And 
that assistance has proved, I think, very useful for countries 
like Bangladesh and India, where in my written remarks I note 
it takes 20 permits to export something from one side of the 
border to the other. So how do we break down those barriers? 
How do we use MCC to promote, you know, electricity trade 
between Nepal and India?
    Mr. Yoho. Right, with the hydroelectric investment.
    Ambassador Wells. Exactly, and also the road maintenance 
component of it, so you actually have the infrastructure that 
can support the trucks that can support the trade. And so, you 
know, these are very specific sometimes and targeted regulatory 
reforms, other times they are major investments in 
infrastructure. But I think we are seen as an extremely 
credible and valuable partner in this effort. Gloria?
    Mr. Yoho. Ms. Steele, can you add to that?
    Ms. Steele. Yes, I think that what we are doing in all of 
Asia I would say is trying to level the playing field for 
American companies to be able to come in. In many of the 
countries in which we work, we work with the governments to be 
able to do public-private partnerships so that they don't have 
to go into debt but rather attract investments leveraging their 
own funds. And that I have found, this has also helped to keep 
more investments from other countries including China to come 
in. It has worked there effectively in East Asia in particular 
where we have done that.
    Mr. Yoho. Okay, thank you. I am going to ask something, it 
could be a little controversial. But a potential challenging in 
the U.S.-India relationships and partnership is the rise of the 
Hindu nationalist politics which detract from the India's 
traditional, inclusive, multi-faith democracy. A less 
harmonious India raises human rights concerns and endangers our 
growing partnership. What are the administration's priority 
regarding human rights in India?
    Ambassador Wells. India provides the highest constitutional 
protections for religious minorities, and our goal is to work 
with India and to encourage India to meet the goals that it 
sets for itself in its own constitution and its laws. There are 
cases obviously of religious, as we detail in both the Human 
Rights Report and the International Religious Freedom Report, 
of infringements and there was the tragic murder of a 
journalist just this week who was often the subject of 
nationalist criticism.
    These are challenges for any democracy, but India is a 
democracy and it is a vibrant democracy and we have respect for 
Indian institutions and ability to rise and meet these 
challenges, and we certainly in all of our engagements at 
senior levels encourage the Indian Government to do so.
    Mr. Yoho. Okay. Ms. Steele, I am going to ask you something 
because Dr. Bera is on his way down, I heard, and this probably 
doesn't get asked a lot of people in your situation or your 
position, but what is it that you could see from the United 
States Congress that if we changed in our policies or 
directions would help facilitate what you do?
    I know appointing people would be a good thing or getting 
them through the Senate. I will bring it up to--I will agree 
with my colleague here that there have been a lot of positions 
appointed but they haven't been passed through the Senate. I 
know that would be something--and I see you guys both writing 
things down so this will be good.
    I will let you direct these at Mr. Sherman--no, both of us 
because so many times we get the information, and I know there 
are things that you have said, man, if they would have asked 
this, or, you know, if there is something that we should have 
asked that we didn't, I would like to hear your thoughts if you 
are comfortable doing that.
    Mr. Sherman. And don't hesitate to say that the President's 
budget requests are completely wrong and that we should be 
providing far more money especially for Ms. Steele's efforts.
    Mr. Yoho. If you do that do it in the third person. I am 
not saying this, but somebody else told me this.
    Mr. Sherman. Yes. I will add that to the question. Do you 
know intelligent people who believe that the President's budget 
requests are completely wrong and that higher amounts should be 
spent?
    Ambassador Wells. I just want to say I am very honored that 
the Secretary Tillerson has trusted me as a senior career 
officer of 28 years' experience to lead the Bureau at this time 
and I think it is a mark of his faith in the institution that 
he has done so. There is a very ambitious and I think very 
credible and inclusive discussion of reform of the State 
Department that is underway. It is coming to its conclusion and 
I know we all look forward to its results. I would say that I 
am sitting here before you because Secretary Tillerson trusts 
the colleagues, the career colleagues that he is working with.
    I interpreted your question a little bit differently on 
what Congress can do. I mean what I would encourage, I really 
encourage congressional visits. Many of these issues are so 
complicated to understand the dynamic in Sri Lanka, to 
understand India's rise and the complexity of India as a 
democracy, and the challenges that a democratic government in 
India has to navigate is best seen firsthand. In my experience 
as a Foreign Service Officer and as an ambassador, having 
congressional visits really built the strength and the 
foundation for a relationship.
    Mr. Yoho. I appreciate you saying that because I just got 
back from a codel to South Korea and Taiwan and we hear the 
same thing there, you know, congressional delegation visits, 
the higher up the better because it shows that cooperation and 
alliance.
    Ms. Steele, do you want to add to that?
    Ms. Steele. Yes. Especially at this time when resources are 
more limited, we would like to be able to build a more trusting 
relationship between you and us so that flexibilities, a little 
bit more flexibilities will be available to us to be able to 
use resources, the limited resources that we have.
    Mr. Yoho. Maybe we should visit the State Department then?
    Ms. Steele. No, we will come and visit you more often and 
provide information, because I think that the relationship 
built on more trust will enable us to be more responsive and 
agile on the needs of, vis-a-vis the needs of the countries, 
and this is particularly important when resources are limited.
    Mr. Yoho. It really is and that trust builds on the 
relationships built on that trust and I think it so important. 
So many times I feel like when people like you come into a 
hearing you feel like it is a to-get-you type and it is not. 
Our goal is to make our relationships with the countries and 
the regions that we represent stronger and we rely on your 
information.
    With that I am going to turn over to Dr. Bera who I just 
had the pleasure to be in South Korea and Taiwan. Doc.
    Mr. Bera. Thank you, Mr. Chairman. I think this is a very 
timely hearing, obviously, as we think about the U.S. role in 
the world the important mission of USAID and the emerging 
importance and dynamism of South Asia. Let's think about it in 
a couple ways.
    I know we will be having a hearing on Afghanistan but the 
interconnected nature between Afghanistan, India, and Pakistan 
was highlighted in the President's comments, I guess it was a 
week ago, last week. As we look at our continuing mission in 
Afghanistan I know USAID has had a role, but the President--and 
I would actually support the President's statement that the 
importance of India continuing to have a role in helping build 
infrastructure, helping build stability and then the complexity 
of Pakistan there in terms of harboring some of the groups that 
are creating an instability there creates this complication, 
Pakistan's concern when the more India is involved in 
Afghanistan the more Pakistan seems to get concerned as well.
    I would just be curious, Ambassador Wells or Ms. Steele, 
how you would think about that in terms of kind of negotiating 
and navigating that with the desire of creating that stability 
in Afghanistan and how it interrelates with India and Pakistan.
    Ambassador Wells. Well, just as Pakistan has very real and 
legitimate security interests in Afghanistan so does India. We 
would like to see, and appreciate constructive economic 
investments, investments in Afghanistan's stability and 
institutional stability, and so if you look at India, by 2020 
they have pledged to spend $3 billion. Some of the projects 
they have already funded include the Parliament House, an 
important dam, training in India for experts and in agro 
experts very vital programs that and Afghanistan is going to 
need.
    In that instance, I think the more international partners 
we can bring to bear who do constructive investments again in 
the economic sphere and in the development sphere we are very 
supportive of.
    Mr. Bera. All right.
    Ambassador Wells. I have nothing to offer.
    Mr. Bera. Okay. And as we think about that role we will 
continue to have a presence there trying to provide training 
and security and we have made significant investments in 
Afghanistan in terms of educating a generation of girls. You 
are seeing a younger generation that is now as they enter 
adulthood does give Afghanistan this possibility of creating 
those civil institutions and we would hate to lose some of 
that.
    Shifting to some of the projects in India that I have had a 
focus on in terms of empowering women and girls in India, I do 
have some real reservations about the proposed budget cuts that 
would decimate some of these programs, some of the cuts to 
UNFPA. Again, I don't think this is a time for the United 
States to be stepping out of that void, especially as India 
historically has been a recipient nation. As it is starting to 
develop, it also is developing into being a donor nation and 
partnering with us to do some interesting things as we go into 
third countries into Africa and so forth.
    I guess again whoever it is appropriate to, Ambassador 
Wells, maybe you want to touch on the importance of maintaining 
some of those investments that we have in India.
    Ambassador Wells. We really see our relationship with India 
transitioning. As India itself becomes an increasingly 
important provider of assistance in the region, we are moving 
away from India as a donor recipient to India as a partner, as 
you said, in third countries.
    We have done interesting work in Africa. There are 
opportunities for us to do joint training in Afghanistan. And 
so what we have tried to do, and I will refer to Gloria here, 
is to really prioritize the remaining funding in those areas 
where we think we can provide the best multiplier effect or 
assist Indian private sector and government in being able to 
tackle a problem more creatively and effectively.
    Mr. Bera. Great. Ms. Steele, do you want to----
    Ms. Steele. In following up on the theme of prioritization, 
the health situation in India, we have prioritized working on 
the health situation in India. It is probably one of the worst 
problems and where we can be better partners and where our 
dollars will make a bigger difference. They have more incidence 
of TB than any in the world. They have one-fourth of the 
maternal and child mortality in the world. And so with the 
limited resources we have, we have prioritized funding in India 
around health, TB prevention and cure, and maternal and child 
health.
    Mr. Bera. And obviously if we could get you more funding 
then you could have a bigger impact; so thank you.
    Ms. Steele. Yes.
    Mr. Yoho. Thank you for that.
    Next, we will go to Mr. Connolly from Virginia.
    Mr. Connolly. Thank you, Mr. Chairman, and thank you for 
holding this hearing. Great to see you both again. I will say 
you have got a job to do and God bless you for trying to do it. 
But when we talk about South Asia perhaps it is the most 
effective region in the world with respect to the retrograde 
policies of the Trump administration. Ripping up TPP, ripping 
up our participation in the Paris climate accord and of course 
slashing AID's budget especially in this region, all those 
things probably have the most effect, the most intense effect 
in South Asia than anywhere else on the planet.
    To that end, correctly debating, and I know my friend, the 
chairman of this committee, he is going to defend Trump, but I 
also know that Ted Yoho has really reflected on how important a 
foreign assistance program is. It is a modest investment. It is 
a modest part of our diplomatic machinery to keep America great 
and I really applaud the chairman of the subcommittee for 
articulating that position.
    I know that was not his original position when he first got 
elected to Congress, but like all of us we learn. We come to 
appreciate. I certainly hope that happens in the administration 
because the cuts being proposed, the retreat being proposed, I 
think is profoundly deleterious to U.S. interests and simply 
opens the way to another power in Asia that is only too happy 
to walk through that opening. That is not making America great 
again, that is making America weak again.
    Let me ask you, Ms. Steele, and feel free, Ambassador 
Wells, to comment. I am not asking you to comment on what I 
just said because that would impolitic for both of you. In 
fact, I am going to say for the record you both vehemently 
disagree with everything I just said, defending the Trump 
administration.
    But South Asia, we have got the heaviest monsoon rains in 
40 years, 1,400 dead, hundreds of thousands of homes damaged or 
destroyed, 41 million people directly affected, and a third of 
an entire sovereign nation, Bangladesh, underwater. How well 
prepared are we to respond to that crisis, Ms. Steele?
    Ms. Steele. We are prepared to respond to the crisis when 
and if they request for our assistance.
    Mr. Connolly. I am sorry, I can't hear you.
    Ms. Steele. When they request for assistance we will be 
there.
    Mr. Connolly. You mean Bangladesh has not requested any 
assistance?
    Ms. Steele. No, not on the flooding. Nepal has, but 
Bangladesh has not. They have not right now, but we are poised 
and prepared to assist when they do.
    Mr. Connolly. Could the fact that a third of an entire 
sovereign nation, Bangladesh, being underwater, could it have 
anything at all to do with, I don't know, the warming of the 
climate? Hmm, all right.
    Ambassador Wells. Could I just add another dimension to----
    Mr. Connolly. Of course.
    Ambassador Wells. In our military-to-military cooperation 
we have done extraordinary work in disaster assistance, 
humanitarian response, including with Bangladesh and with 
Nepal. In fact, we tragically lost seven of our own in Nepal in 
a helicopter accident in the wake of the earthquake response. 
And so in Bangladesh where we have built over 500 cyclone 
shelters, we have worked on how you manage water resources, 
there has been a significant U.S. investment in that effort and 
an ongoing commitment to increase the capacity of Bangladeshis 
to respond.
    Mr. Connolly. I appreciate that Ambassador Wells, but the 
fact of the matter is the Trump budget slashes health for these 
three countries by 50 percent and this flooding is now leading 
to a mass outbreak of diarrheal related diseases, malaria, 
Dengue fever, and possibly cholera. How can we in good 
conscience cut our health budget to these countries in half in 
light of what is happening in front of our faces? How can we 
justify that? How can we make those programs efficacious with a 
50 percent cut?
    Ms. Steele. On humanitarian assistance and disaster 
response, these are not bilaterally allocated. We have a 
central fund for humanitarian assistance. As I mentioned 
earlier, Mr. Connolly, we are prepared to respond when they 
request for our assistance and they have not done so. And I 
believe as my colleague Alice said, we have invested in helping 
them mitigate the impacts of disasters and we are ready. The 
budget that you see that is allocated for these countries does 
not reflect the humanitarian assistance budget that we have 
centrally.
    Mr. Connolly. Mr. Chairman, will you allow me just one 
follow-up question with respect to Bangladesh?
    Mr. Yoho. Okay.
    Mr. Connolly. I thank the chair. Why hasn't Bangladesh 
asked for our help? I am puzzled by that. I mean maybe the 
phone is underwater with the rest of the country.
    Ms. Steele. I do not know the response to your question and 
I will follow up and ask, but we have not received----
    Mr. Connolly. And Ambassador Wells, do you have any idea?
    Yeah, thank you. I am sorry. I just, I don't want to--I am 
running out of time, so I didn't mean to be abrupt.
    All right. Well, if anyone is listening, Bangladesh, please 
call. Got a phone number? No? All right, State Department, 
thank you. Thank you, Mr. Chairman.
    Mr. Yoho. Thank you. Dr. Bera would like to have another 
shot at some questions if you guys are okay.
    Mr. Bera. Yeah, I actually just wanted to make a statement. 
You know, listening to my colleague Mr. Connolly as well as 
being a classmate of Chairman Yoho and serving on Foreign 
Affairs with Mr. Sherman, this is an incredibly important time 
for the United States with everything going on around the world 
and in South Asia to continue to stay engaged and involved.
    Both Ambassador Wells and Ms. Steele, you guys are doing 
the best you can within the circumstances and the resources 
that are being provided, and I think it is important to make a 
statement about the public servants who serve us within the 
State Department and represent our country around the world. 
Again I just want to make a statement on how much as a member 
of the Foreign Affairs Committee and a Member of Congress we 
appreciate their service. We understand they are doing what 
they can and I think it is important for us to let them hear 
how much we as Members of Congress as well as the public and 
the citizens of the United States appreciate that service and 
representation, so thank you.
    Mr. Sherman. If the gentleman will yield, I so appreciate 
the individuals who work at the State Department. I married one 
of them.
    Mr. Yoho. Well said on both counts with both of you, 
because I was going to end that way.
    Ambassador Wells, Ms. Steele, as you go forward, as our 
State Department goes forward in these economic times that we 
are having in our country and as we are having some challenges 
here, we may be cutting some programs, but we are going to 
replace it with the goodwill as you said the humanitarian 
assistance. You are the spokesmen for the United States 
Government as you go to these countries and we rely on you to 
instill into those countries the belief that we are here with 
them. We will stand with them. We will work through our 
challenges, but we are there to provide that assistance.
    So I do appreciate it. This committee, I think, speaks as a 
voice of unity in saying that same thing, and again I can't 
tell you how much we appreciate you coming in, being up front 
and just very engaging. Thank you both. This meeting is 
adjourned.
    [Whereupon, at 11:21 a.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                    Material Submitted for the Record
         
         
         
         
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         

                                 [all]
                                 
                                 
</pre></body></html>
